<html>
<title> - A CALL TO ACTION ON FOOD SECURITY: THE ADMINISTRATION'S GLOBAL STRATEGY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                   A CALL TO ACTION ON FOOD SECURITY:
                  THE ADMINISTRATION'S GLOBAL STRATEGY

=======================================================================


                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON AFRICA AND GLOBAL HEALTH

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 29, 2009

                               __________

                           Serial No. 111-72

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
53-139                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a7c0d7c8e7c4d2d4d3cfc2cbd789c4c8ca89">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                Subcommittee on Africa and Global Health

                 DONALD M. PAYNE, New Jersey, Chairman
DIANE E. WATSON, California          CHRISTOPHER H. SMITH, New Jersey
BARBARA LEE, California              JEFF FLAKE, Arizona
BRAD MILLER, North Carolina          JOHN BOOZMAN, Arkansas
GREGORY W. MEEKS, New York           JEFF FORTENBERRY, Nebraska
SHEILA JACKSON LEE, Texas
LYNN WOOLSEY, California
               Noelle Lusane, Subcommittee Staff Director
Lindsay Gilchrist, Subcommittee Professional Staff Member<greek-l>As of 
                             10/26/09 deg.
          Sheri Rickert, Republican Professional Staff Member
                     Antonina King, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Thomas Melito, Ph.D., Director, International Affairs and Trade 
  Team, United States Government Accountability Office...........     6
Helene Gayle, M.D., M.P.H., President and Chief Executive 
  Officer, CARE..................................................    27
Julie Howard, Ph.D., Executive Director, Partnership to Cut 
  Hunger and Poverty in Africa...................................    41
Reverend David Beckmann, President, Bread for the World..........    54
Mr. Richard Leach, Senior Advisor, Public Policy, Friends of the 
  World Food Program.............................................    62

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Thomas Melito, Ph.D.: Prepared statement.........................     8
Helene Gayle, M.D., M.P.H.: Prepared statement...................    30
Julie Howard, Ph.D.: Prepared statement..........................    45
Reverend David Beckmann: Prepared statement......................    56
Mr. Richard Leach: Prepared statement............................    65

                                APPENDIX

Hearing notice...................................................    90
Hearing minutes..................................................    91


A CALL TO ACTION ON FOOD SECURITY: THE ADMINISTRATION'S GLOBAL STRATEGY

                              ----------                              


                       THURSDAY, OCTOBER 29, 2009

                  House of Representatives,
          Subcommittee on Africa and Global Health,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:35 a.m. in 
room 2172, Rayburn House Office Building, the Honorable Donald 
M. Payne, (chairman of the subcommittee) presiding.
    Mr. Payne. The meeting of the Subcommittee on Africa and 
Global Health will come to order. Let me welcome everyone here 
this morning and thank you for joining us on this Subcommittee 
on Africa and Global Health for its critically important 
hearing entitled, ``A Call to Action on Food Security: The 
Administration's Global Strategy.''
    A number of people and I am sure you will hear from each of 
the witnesses about the growing number and the concern for the 
number of people who go hungry each day, the number varies, but 
we know that it is high, and our estimates say that it is 
shocking that 1 billion people have gone through a food and 
economic crisis--going hungry--during the course of the year 
over the last few years, and the situation, unfortunately, 
contrary to our goals of the Millennium Challenge, is going in 
the opposite direction. The number of people affected is 
astonishing.
    Moreover, the United Nations Secretary-General Ban Ki-moon 
reports that the proportion of undernourished people has risen 
as well. This flies directly into the Millennium Development 
Goal. Therefore, there is perhaps nothing more important than 
we can be discussing this morning than what the United States 
is planning to do to address the food and security of nearly 
one-sixth of the world's population.
    This hearing is the latest in a series of close to a half-
dozen hearings on food security and food assistance that this 
subcommittee has held in the past 2 years. The last such 
hearing was held on June 4th of this year, focused on the local 
and regional purchases (LRPs) can play in enhancing our aid's 
effectiveness.
    Today's hearing will discuss the U.S. Global Hunger and 
Food Security Initiatives which Secretary of State Hillary 
Clinton unveiled at the United Nations General Assembly this 
past September. Following Secretary Clinton's announcement, the 
State Department released a draft document which outlined the 
administration's strategy whose goals are to ``substantially 
reduce chronic hunger, raise the incomes of rural poor, and 
reduce the number of children suffering from undernutrition.'' 
This is a welcomed paradigm shift back to strong investments in 
agriculture development and this means that there will be our 
goal to increase food security and as a critical element of 
long-term sustainable development in poor regions of the world, 
particularly in Africa, and that is really where we have to 
focus. You can feed people forever, but you have to deal with 
the root causes of the problem.
    I commend President Obama for encouraging these bold steps 
and Secretary Clinton who has taken on this as a major priority 
of the administration and has assigned her own Chief of Staff 
Counsel, Cheryl Mills, to lead up the initiative.
    The U.S. Global Hunger and Food Security Initiative builds 
upon the commitment made at the G-8 Summit in L'Aquila in Italy 
where countries agreed to $20 billion over 3 years toward the 
global partnership for agriculture and food security. This 
partnership will focus on promoting sustainable agricultural 
production, productivity, and rural economic growth.
    Last month the G-20 in Pittsburgh reaffirmed these 
commitments and called for the establishment of a World Bank 
Food Security Trust Fund to finance medium- and long-term 
investments in agricultural productivity and market access in 
low-income countries. The administration's food security 
initiative, therefore, will work in tandem with the global 
partnerships, and I think it is important to point out that 
both the U.S. and the global initiatives stress that assistance 
provided through these programs will be complementary to the 
ongoing emergency food assistance. The emphasis on agricultural 
production and rural development does come not a minute too 
soon. It is something that we really should have been focusing 
on in the past; because, according to the Food and Agricultural 
Organization of the United Nations it will take a 70 percent 
increase in global food production to feed the world's 
population by 2060, the world's population is expected to be 
1.9 billion due to both population growth and rising income, 
9.1 billion, yes. I might have said million, but it is billion 
as we all know.
    There is also greater recognition, as emphasized 
particularly in the administration's strategy, on the role of 
women and the importance of empowering them with education, 
tools, and assistance they need to make up. As we know, they 
are the majority of the small farmers, the small holder 
farmers, and they are the engines of development in every 
society, and I think that is very clear and that has been a 
proven fact for decades.
    While the U.S. initiative is welcomed and encouraged, many 
of the details are still to be ironed out. Thus, today's 
hearing will include an assessment of where the initiative 
stands as we speak, what it seeks to achieve, and what 
recommendations we might have to further develop it as we 
evolve with this policy.
    Let me remind us that it comes as no surprise that with the 
levels of poverty that exists in the world today that the 
number of people who cannot afford to grow or buy the food they 
need to live healthy, productive lives have dramatically 
increased. According to UNICEF, 25,000 children die every day 
due to poverty. This is unconscionable, and it must change. 
This is simply wrong. We can and must do more to end poverty. 
It is simply a moral imperative.
    I sincerely thank the panel of our esteemed witnesses whose 
testimony we will hear before us today to share their insights. 
Each one of you are experts in your own way, and we would like 
to see how we can move forward as we address this very 
important issue. Following the remarks from the ranking member 
and the other members' comments, I will introduce the witnesses 
and we will proceed with their testimony.
    Mr. Smith?
    Mr. Smith. Thank you very much, Mr. Chairman, and I want to 
thank you for calling this very important and timely hearing 
designed to examine the administration's recently released 
consultation document that proposed a strategy which aids 
global food security. According to the U.N. Food and 
Agricultural Organization, people are food insecure and they do 
not have enough physical, social or economic access to 
sufficient safe and nutritious food to meet their dietary needs 
and food preferences for an active and healthy life.
    The FAO's 2009 report ``The Food of Insecurity in the 
World'' states that the decline in the numbers of chronically 
hungry people that was occurring some 20 years ago has been 
reversed, largely due to less available official developmental 
assistance devoted to agriculture. That unfortunate policy 
outcome, combined with the current global food and economic 
crisis, has resulted in an estimated 1 billion undernourished 
people around the world. The majority of those who lack food 
security, an estimated 642 million, live in Asia and the 
Pacific. Sub-Sahara Africa also has a large number at 265 
million, and has the highest prevalence at one out of every 
three persons undernourished.
    It is disturbing to note that the developed countries are 
not immune from this deficiency. We have around 15 million 
people living in our midst who are food insecure. It is 
shocking to hear that hungry and undernutrition kills more 
people globally than AIDS, malaria and tuberculosis combined. 
Hunger and malnutrition are the underlying causes of death of 
over 3.5 million children every year, or more than 10,000 
children each day.
    Poor households in the developing countries currently are 
facing a particularly devastating challenge for food security 
for two reasons. One is the global nature of the economic 
crisis which reduces the availability of coping mechanisms such 
as currency evaluations, borrowing or increased use of ODA, or 
migrant remittances that would otherwise be available if only a 
certain region or regions were impacted. Another is the food 
crisis that preceded the economic crisis which had already 
placed poor households in a weak position.
    Several initiatives have been announced over the past few 
months to galvanize international action to address this 
crisis. The Global Partnership for Agriculture and Food 
Security was announced at the G-8 Summit in Italy, in July, in 
which summit leaders and other countries and organizations 
established a goal of mobilizing, as you pointed out, $20 
billion over the next 3 years, in particular, to promote 
sustainable production, productivity and rural economic growth, 
and additional countries have since pledged an additional $2 
billion to this effort. Unfortunately, there are reports that 
about one-half to two-thirds of that commitment is actually 
just in aid that has merely been repackaged.
    The view of 27 in Pittsburgh, however, in September, 
endorsed the initiative embraced by the G-8 and also called for 
an establishment of a World Bank Food Security Trust Fund. The 
purpose of this fund will be to boost agricultural productivity 
and market access in low-income countries by financing medium- 
and long-term investments. Later that month, the United Nations 
Secretary-General and Secretary of State Hillary Clinton issued 
a joint statement in which they agreed to build upon the global 
partnerships initiated in Italy.
    The Secretary of State also released a consultation 
document at the end of September taking the views of numerous 
interested parties with respect to our proposed strategy to 
address global hunger and food security. I commend the 
Secretary for emphasizing the importance of imports from small-
scale farmers and related agricultural producers in the 
consultation process.
    We are here today to examine this initiative and hear from 
the Government Accountability Office and our other very 
distinguished witnesses on the panel, and again, I look forward 
to hearing your insights as we craft this strategy.
    I yield back.
    Mr. Payne. Thank you very much, Mr. Smith, and now I would 
like to introduce our panelists. First, we have Dr. Thomas 
Melito. Dr. Melito is director of International Affairs and 
Trade Team at GAO. In this capacity he is primarily responsible 
for GAO work involving multilateral organizations and 
international finance. Over the last 10 years, Dr. Melito has 
been focusing on a wide range of development issues, including 
debt relief for poor country's international food security and 
human trafficking. As part of the human trafficking portfolio, 
Dr. Melito led a review of U.S. Government and international 
efforts to monitor and evaluate their international programs 
and projects.
    Since 2007, Dr. Melito has testified several times to 
Congress on the GAO's reviews of U.S. food assistance efforts, 
including on weaknesses and in monitoring any valuations.
    Dr. Melito holds an M.A. and a Ph.D. in economics from 
Columbia University and a B.S. in industrial and labor 
relations from Cornell University.
    The second witness will be Dr. Helene D. Gayle. Dr. Gale is 
president and chief executive officer of CARE USA. She heads 
one of the world's premier international humanitarian 
organizations. Dr. Gayle spent 20 years with the Centers for 
Disease Control, focusing primarily on combatting HIV and AIDS. 
She then directed the HIV, TB and reproductive health programs 
at the Bill and Melinda Gates Foundation. Dr. Gayle is chair of 
the Presidential Advisory Council on HIV and AIDS. She has 
published numerous scientific articles and has been featured in 
media outlets as the person from New York Times, Washington 
Post, Glamour, Vogue Magazines--the ladies tell me that is 
important--Essence--they also say that too--Financial Times, 
National Public Radio and CNN.
    Dr. Gayle was born and raised in Buffalo, New York, earned 
a B.A. in psychology at Barnard College, and an M.D. from the 
University of Pennsylvania, and a M.P.H. from Johns Hopkins 
University. It is good to have you with us.
    Our next witness is Dr. Julie Howard. Dr. Howard has served 
since 2003 as the executive director of the Partnership to Cut 
Hunger and Poverty in Africa, an independent nonprofit 
coalition dedicated to increasing the level of effectiveness of 
U.S. assistance and private investment in Africa. Dr. Howard 
holds a Ph.D. in agriculture economics from Michigan State 
University, and an M.S. in international agriculture 
development from the University of California, Davis, and a 
B.A. in international care from George Washington University.
    She has carried out research and written on agricultural 
technology development and transfer in Zambia, Mozambique, 
Ethiopia, Uganda and Somalia. Dr. Howard is co-author with 
Michael R. Taylor of ``Investing in African's Future: U.S. 
Agricultural Development Assistance for sub-Saharan African,'' 
2005, and with Alexander Ray Love of ``Now is the Time to Plan 
to Cut Hunger and Poverty in Africa,'' 2002. Dr. Howard also 
serves as an adjunct assistant professor of development at 
Michigan State University.
    Now, who is no stranger to us, Reverend David Beckmann. Dr. 
Beckmann is one of the foremost U.S. advocates for policies and 
programs to reduce poverty in the United States and worldwide. 
He has been president of Bread for the World for 15 years, 
leading large scale and successful campaigns to strengthen U.S. 
political commitments to the hunger and poverty. Before that he 
served at the World Bank for 15 years, and Dr. Beckmann was one 
of the prime movers to have legislation passed and kept the 
U.S. focused on supporting the Millennium Challenge goals in 
2000 when there was some wavering as we saw in 2005. As a 
matter of fact it was when it was thought that the United 
States might move back from its commitment of 2000 to halve 
poverty by 2015, and so we really appreciate the work of Bread 
for the World.
    Dr. Beckmann founded and served as president of the 
Alliance to End Hunger, which engages diverse U.S. institutions 
to build political support that will end hunger. Dr. Beckmann 
is also president of Bread for the World Institute which does 
research and education on poverty and development. Dr. Beckmann 
is a Lutheran clergyman as well as an economist earning degrees 
from Yale, Christ Seminary and the London School of Economics. 
He has written many books and articles, including 
``Transforming the Politics of Hunger and Grace at the Table: 
Ending Hunger in God's World.''
    Last but not least, we have Mr. Richard Leach. Mr. Leach 
serves as the senior advisor for Public Policy for Friends of 
the World Food Program. He established the organization in 
1997, and in 2003 and 2004, he directed a global initiative to 
address the hunger among children. From 1991 to 1993, Mr. Leach 
served as foreign policy staff on the U.S. House Select 
Committee on Hunger which did so many great things during the 
time, and we really appreciate your work on that very important 
committee. He has also served as senior advisor to the World 
Health Organization and is a member of the American Bar 
Association's task force on reform of the United Nations 
Commission on Human Rights.
    In 1993, he was appointed by the Clinton administration to 
direct a nationwide campaign to increase solid immunization 
rates, and later transformed a campaign operation into a branch 
of the United States Center for Disease Control and Prevention, 
and we know how important immunization is with the epidemic 
that we have seen in recent history.
    Mr. Leach practiced law for 1986 to 1990. He served as 
chairman of the board of directors of the American Lung 
Association for the District of Columbia from 2004 to 2006 and 
is currently a member of the board of directors of United 
Mitochondrial Disease Foundation.
    At this time we will start with our first witness, Dr. 
Melito.

  STATEMENT OF THOMAS MELITO, PH.D., DIRECTOR, INTERNATIONAL 
AFFAIRS AND TRADE TEAM, UNITED STATES GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Melito. Mr. Chairman and members of the subcommittee. I 
am pleased to be here to discuss the extent to which host 
governments and donors, including the United States, are 
working to improve global food security. This problem is 
especially severe in sub-Saharan Africa with one out of every 
three people considered undernourished. Worldwide the number of 
undernourished people has been growing and now exceeds 1 
billion. As the largest international donor, contributing over 
half of food aid to supplies to alleviate hunger and support 
development, the United States plays an important role in 
responding to emergencies and ensuring global food security.
    Global targets were set at the 1996 World Food Conference 
when the United States and more than 180 nations pledged to 
halve the total number of undernourished people worldwide by 
2015. In recent years, GAO has issued a number of reports on 
international food assistance issues that made recommendations 
to improve U.S. food aid and global food security.
    My statement today is based on our May 2008 report and on 
recent and ongoing work. I will focus on two topics. First, I 
will discuss host government and donor efforts to halve hunger, 
especially in sub-Saharan Africa by 2015. Second, I will 
discuss the status of U.S. agencies' implementation of GAO's 
2008 recommendations to enhance efforts to address global food 
insecurity.
    Regarding the first objective, we found that host 
governments and donors, including the United States, have made 
little progress in halving hunger for these three key reasons: 
First, host governments in sub-Saharan Africa have not 
prioritized food security as a development goal, and as of 
2007, only eight countries had fulfilled the 2003 pledge to 
direct 10 percent of government spending to agriculture. 
However, these data represent an increase of four additional 
countries that met the pledge between 2005 and 2007.
    Second, donor aid directed toward agricultural was 
declining until about 2005.
    Third, U.S. efforts to reduce hunger, especially in sub-
Saharan Africa, focused primarily on emergency food aid and had 
not addressed the underlying factors that contributed to their 
recurrence and severity.
    However, to reverse the declining trend in funding, in July 
2009, the Group of 8 agreed to a $20 billion 3-year commitment 
to increase assistance for global food security. The U.S.'s 
share of this commitment is about $3.4 billion. It includes 
about $1.4 billion in Fiscal Year 2010, representing more than 
double the Fiscal Year 2009 budget request.
    Regarding our second objective, in our May 2008 report we 
recommended, first, the development of an integrated 
government-wide U.S. strategy that defines each agency's 
actions with specific timeframes and resource commitments, 
enhances collaboration with host governments and other donors, 
and improves measures to monitor the progress; and second, 
report annually to Congress on the implementation of the first 
recommendation.
    Consistent with our first recommendation, U.S. agencies are 
in the process of developing a government-wide strategy to 
achieve global food security with the launching of a food 
security initiative. In April 2009, the new administration 
created the Interagency Policy Committee. In late September 
2009, State issued a consultation document that delineates a 
proposed comprehensive approach to food security. Although the 
document outlines broad objectives and principles, it has not 
yet evolved into an integrated government-wide strategy that we 
called for in our 2008 recommendations.
    Such a strategy would define each agency's actions and 
resource commitments to achieve global food security and to 
promote improved collaboration with host government and other 
donors, and include measures to monitor and evaluate progress 
toward implementing the strategy.
    Regarding our second recommendation, USAID officials stated 
that they plan to update Congress on progress toward the 
implementation of such a strategy as part of the agency's 2008 
Initiative to End Hunger in Africa report, which is expected to 
be released in the near future.
    However, as we concluded in our May 2008 report, this 
effort does not comprehensively address the underlying causes 
of food insecurity nor does it leverage the full extent of U.S. 
assistance across all agencies.
    Finally, in response to a request from Chairwoman Rosa 
DeLauro, we are currently conducting a review of U.S. efforts 
to address global food insecurity. We plan to report on the 
nature and scope of U.S. food security programs and the status 
of U.S. agencies' ongoing efforts to develop an integrated 
government-wide strategy to address persistent food insecurity 
by using GAO criteria identified in prior products.
    Mr. Chairman, this concludes my statement. I would be 
pleased to any questions you or the members of the subcommittee 
have. Thank you.
    [The prepared statement of Mr. Melito 
follows:]<greek-l>Thomas Melito deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Payne. Thank you very much. Dr. Gayle.

 STATEMENT OF HELENE GAYLE, M.D., M.P.H., PRESIDENT AND CHIEF 
                    EXECUTIVE OFFICER, CARE

    Dr. Gayle. Thank you, Chairman Payne and Representative 
Smith, and members of the subcommittee. I want to thank you for 
this opportunity to give brief comments on global hunger and 
food security in the administration's food security initiate. 
We applaud the initiative of the Obama administration and your 
own longstanding leadership on this issue.
    I speak today on behalf of CARE, a humanitarian 
organization that fights poverty and its causes in nearly 70 
countries around the world. As an organization, our very roots 
are entwined with this issue since we began our work providing 
care packages of food to people devastated by the effects of 
World War II. Our over 60 years of global experience convinces 
us that we can end extreme hunger and food insecurity around 
the world if we put in place the right resources, the right 
strategies, and have a sustained commitment to do so.
    Last year, global crisis brought much attention to the 
issue of world hunger. We need to maintain that focus because 
that crisis is more than just last year's spike. And now to 
make matters worse, climate change poses an additional threat 
to the international community's efforts to reduce chronic 
hunger.
    CARE strongly supports the principles outlined in the 
administration's Food Security Initiative and believes that a 
country-led collaborative approach that addresses the 
underlying causes of hunger is critical. We also support an 
increased focus being placed on agricultural productivity, both 
here in Congress and the administration.
    That said, while agricultural development is a critical 
element of a successful Food Security Initiative, it is not 
enough to assume that improved agricultural loan will achieve 
food security. A comprehensive initiative to combat global 
hunger and assure food security must include flexible food 
assistance, a focus on gender, social safety nets, and 
nutritional support. Let me just take a few moments to talk 
about each of these.
    First, flexibility. There is no one-size-fits-all solution. 
The effectiveness of both short-term emergency aid and long-
term development programs could be greatly improved if donors 
would allow countries and the organizations working with them 
to choose the most appropriate cost-effective approach to 
responding to any given food security situation.
    Practitioners should be free to use imported food aid when 
it is most appropriate, free to purchase local food or food 
locally or regionally when that would be more appropriate, and 
free to use cash transfers, vouchers, cash for work and other 
non-food interventions when those are the most appropriate. 
Decisions about whether to distribute vouchers, local or 
regionally purchase food or food secured in the United States 
should be based on two factors: Local market conditions and 
local or regional availability of food in sufficient quantities 
and quality to meet local needs.
    Where markets work well and food is locally available in 
sufficient quantity and quality cash transfers or vouchers are 
generally the most efficient. When food is locally available 
but markets do not function well, direct distribution of local 
or regionally purchased food is likely to be the most 
appropriate form, and where food is not locally or regionally 
available in sufficient quantity and quality shipping food may 
be called for.
    However, we want to note that shipping food from the United 
States to developing countries is slow, expensive, and 
unpredictable. The cost of this tied food aid has shown to be 
sufficiently higher, in many cases 30-50 percent higher than 
alternative non-tied food aid, and can take as much as three 
times longer to get food to the people who need it most. The 
United States is now spending 20 times as much on food aid in 
Africa as it is spending to help African farmers grow their own 
food.
    We also believe that this means moving away from the 
practice of modernization, a practice that our organization is 
phasing out of because of this inefficiency and risk to local 
agricultural productivity.
    Gender has been mentioned by both of you. We believe it is 
important to place the special emphasis on investing in girls 
and women because it is clear that it the best way to benefit 
families and move entire communities out of poverty. However, 
women have not been taken into consideration when programs and 
policies related o food security are developed. Rural women 
produce half the world's food, and in developing countries 
between 60 and 80 percent of food crops, yet only <greek-l>one 
deg.1 percent of farmland. If we are going to have an impact on 
improving food security and agricultural productivity it is 
important that women be placed at the heart of those policies 
and that we make sure that any food policy and initiatives 
toward food insecurity address gender-specific barriers to 
accessing education credits and land tenure.
    Social safety nets, we are pleased that this is one of the 
three key objectives of the administration's comprehensive 
approach to increase the impact of humanitarian and food 
assistance, and social thinking. We must help countries create 
social safety nets that prevent people in the margin from 
falling into extreme poverty, and we put in our written 
statement many examples of how social protective safety nets 
have made a huge difference in<greek-l>t deg. making sure that 
those who are living on the margins of poverty or who are 
already in poverty do not fall further behind because of a lack 
of access to important social safety nets and ways of 
mitigating the negative impacts of poverty and food insecurity.
    If we can help prevent people who experience extreme 
poverty fall further and further behind, we can have a greater 
impact on moving them toward greater food self-sufficiency.
    And finally, let me just touch on the issue of nutrition. 
Hunger and malnutrition are the primary risks of global health, 
as has been previously stated, in killing more people than 
AIDS, malaria, and tuberculosis combined. Additionally, 
chronically malnourished children are unable to develop their 
cognitive capacities adequately, thus reducing their ability to 
learn at school and compete later as adults in the marketplace. 
We suggest that nutritional impact play a key role in the Food 
Security Initiatives and that nutritional assessment is used as 
a key indicator of the initiative's effectiveness.
    Just in closing, Mr. Chairman, and members of the 
committee, you have an opportunity to make an extraordinary 
difference throughout the world by taking bold actions to 
advance a comprehensive Global Hunger and Food Security 
Initiative that takes flexibility, gender equality, social 
safety nets, and nutrition into consideration. As Secretary 
Clinton said when she unveiled the administration's imitative, 
``The question is not whether we can end hunger, it is whether 
we will.'' The time to act is now. This hearing is an important 
step. We ask this committee to markup global hunger and food 
security legislation, the Global Food Security Act, H.R. 3077, 
and the Roadmap to End Global Hunger Act, H.R. 2817, and stay 
the course toward comprehensive flexible food security policies 
focused on those who are most vulnerable with a focus on 
inclusion of women. Thank you.
    [The prepared statement of Dr. Gayle 
follows:]<greek-l>Helene Gayle deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Payne. Thank you very much. Dr. Howard.

     STATEMENT OF JULIE HOWARD, PH.D., EXECUTIVE DIRECTOR, 
        PARTNERSHIP TO CUT HUNGER AND POVERTY IN AFRICA

    Ms. Howard. Mr. Chairman, Ranking Member, thank you for 
this hearing, and thank you for this opportunity to testify 
about the administration's Food Security Initiative and 
recommendations for the strategy going forward. Mr. Chairman, I 
will make six key points today. I will focus my remarks on the 
impact and recommendations of the food security strategy in 
Africa, although I believe there recommendations are more 
broadly applicable.
    First, the new leadership on global food security from the 
administration and Congress is impressive and promises a 
significant expansion of funding to catalogue economic 
development in Africa and elsewhere. For millennia, agriculture 
has provided the foundation for economic well being and growth 
worldwide. However, we seemed to forget this over the past few 
decades when development assistance for agriculture declined 
sharply. In 1979, agriculture assistance was 18 percent of ODA. 
This has slipped to 2.5 percent by 2004.
    Today, due in large part to the devastating impact of the 
recent global food price crisis, agriculture has reemerged as 
the key driver status to sustainably reduce poverty and hunger, 
and this is especially important in rural Africa where 70 
percent of the population lives and works.
    The United States began increasing its investments in 
African agriculture in 2005. The gain in U.S. assistance 
between 2005 and 2008 was due primarily to the launch of the 
MCC and the beginning of compact implementation. This is 
documented in reports of the partnership earlier this month. 
The MCC is in fact our first U.S. experience with assistance 
that is driven by priorities set by partner countries. When 
partners had the opportunity to choose the kind of economic 
development assistance they wanted, they opted for agriculture 
and agriculture-related infrastructure programs. That increase 
between 2005 and 2008 was from $660 million to $1.1 billion. 
That includes all U.S. assistance provided through bilateral 
and multilateral channels.
    We are expecting further and significant increases as has 
already been discussed, the pledge at L'Aquila Summit, the 
budgets that President Obama has submitted to Congress, all 
very promising, and of course the release of the consultative 
security documents.
    The leadership on food security, we are pleased to note, is 
coming not only from the administration but from Congress. The 
Global Food Security Act of 2009, developed by Senators Lugar 
and Casey, and in the House by Congresswoman McCollum, calls 
for a comprehensive goal of government strategies for tackling 
food security with sustainable agricultural development. The 
bill would make <greek-l>U.S. aid deg.USAID the lead 
implementing agency and also authorize add-on appropriations 
that would be $2.5 billion by 2014.
    Representative McGovern and Emerson have also introduced 
important legislation focusing on the imperative of dealing 
with both emergency needs and longer term agricultural 
development.
    These funding increases are significant and important, but 
I think it is helpful to put these increases in context. Even 
with projected increase, U.S. agricultural funding for African 
nations are a relatively small fraction of U.S. assistance 
globally, and continues to lag far behind health funding. Even 
with the 2010 increase in agricultural programming for Africa 
would be just 1.8 percent of global U.S. ODA and less than 10 
percent of the assistance for Africa.
    Due largely to the significant and important U.S. funding 
in combating AIDS, the health program area received almost 60 
percent of the USAID state-managed assistance in 2008, and 
would received 67 percent under the 2010 budget increase.
    The availability of resources is not the end of the story, 
it is simply the beginning, and so our central question must be 
this: How can donor resources supply the spark that will feed 
the energy of hundreds of African organizations, individuals 
and families in solving problems themselves that are now making 
them food insecure?
    So my second point is that we are very pleased to see a 
demand-driven potentially responsive approach play such a 
central role in the administration's global hunger and food 
security consultation documents. We believe that embracing a 
demand-driven approach will enable the U.S. and its bilateral 
and multilateral partners to focus and coordinate their 
resources and then translate or commitments into actions 
sustained by Africans.
    It should be clear that this would be a significant 
departures from the way in which decisions about foreign aid 
are made now. Although recipient countries and organizations 
are involved in the process, decision-making about foreign aid 
has traditionally been the prerogative of the donors. Donor 
countries and organizations act as investors, determining the 
total amount of funding, its allocation to specific countries, 
the way the funds are managed, the kinds of results, impacts 
that are expected, and who implements the program, and despite 
consultations this final program is really country owned, and 
the U.S. prolonged negotiations takes place each year between 
the administration and Congress as well as in Congress to 
structure the foreign aid assistance budget and direct its 
implementation.
    Further, the U.S. Government enters into agreements for 
program implementation with NGOs, the colleges and 
universities, the private businesses. These organizations align 
the financial and staff resources to pursue development goals 
that are set in Washington. We have two specific 
recommendations.
    First, it will be important to elevate this demand-driven 
principle by instilling in U.S. law a strong presumption that 
recipient countries will appropriately determine the priorities 
for achieving food securities and agricultural development on 
the ground.
    And the second recommendation in this area is that the 
demand-drive approach should be expanded to include regional 
organizations. The African Union has placed a high priority on 
regional organizations and effective regional integration of 
markets, trade, and supporting institutions.
    My third point, Mr. Chairman, is that funding and 
implementation flexibility can be maximized through the 
creation of a food security fund in the U.S. As you know, 
currently the stove piping of programs, rigid separation of 
funding accounts, and complex systems for selecting contract or 
grantee organizations to lead implementation greatly 
constrained the U.S. Government's ability to respond to country 
priorities for changing conditions at the partner country 
level.
    Alternatively, a single congressionally mandated U.S. food 
security fund could cut through this maze. The fund could be 
tapped for the unique mix of assistance appropriate for each 
nation or region, allowing the U.S. to respond to country 
priorities and to changing realities on the ground.
    Fourth, Mr. Chairman, U.S. programs ought to place a high 
priority on local capacity and institution building, and adopt 
a results-oriented learning approach. To deepen the 
effectiveness of the demand-driven approach, the U.S. Food 
Security Initiative should place more emphasis on using and 
strengthening African local capacity and institutions. This 
would underscore our long-term commitment to strengthening the 
foundation for sustained agricultural development.
    Also in implementing the Food Security Initiative, the U.S. 
Government should set strong initiatives for contractors and 
grantees to contribute to building the capacity of local staff 
and institutions in both public and private sectors.
    Fifth, while the consultative document is a promising 
start, there are many questions about how the initiative will 
be implemented in Washington and in the U.S. country regional 
offices. U.S. efforts on food security will be complex, multi-
sectorial, and long term. Investing in country-led food 
security plans will require acting on a number of fronts 
simultaneously.
    The diversity of current U.S. Government assistance 
approaches is a strength and weakness. It implies potential for 
responding with depth and expertise to a number of issues in a 
variety of sectors, but it also implies clashing organizational 
cultures, competition for resources and influence, and 
uncoordinated implementation. Building and sustaining a 
Washington team dedicated to food security is critical to 
translating this commitment into action efficiently and 
effectively.
    Many questions remain to be answered. These are critical 
for the successful implementation of the Food Security 
Initiative. They include, first, at the Washington level, will, 
as proposed under the Global Food Security Act, USAID take the 
interagency lead in coordinating a whole-of-government approach 
and in consultation with international donors? It is obviously 
a very serious problem that we still do not have a USAID 
administrator at this critical stage.
    Second, is the current structure of the centralized 
foreign-assistance budgeting system, under State's deputy 
secretary, consistent with the decentralized, participatory, 
flexible, and innovative approach to food security, or must it 
be modified?
    Also, how will U.S. food security funding for country- and 
region-led investments mesh with other bilateral and 
multilateral food security initiatives, such as the initiatives 
by the U.N., IFAD, and the World Bank?
    Equally important questions remain at the country level. 
How will U.S. teams be built at the country and regional 
levels? Will the White House and NSA and the State Department 
designate USAID to lead, with the Ambassador, U.S. Government 
interagency implementation of the Food Security Initiative?
    What are the appropriate roles for nonlead agencies in 
individual countries and regions, which, nevertheless, have a 
significant and important presence? What role should MCC and 
USDA play at the country and regional level?
    And, finally, Mr. Chair, my final point: Successful 
implementation of this country-led Food Security Initiative can 
lead the way toward larger foreign assistance reforms. The 
demand-driven, Food Security Initiative can be employed to test 
and demonstrate the benefits of broader foreign assistance 
reforms.
    There are three critical areas for replicating this 
approach: First, developing new approaches to strategic 
planning for country- and regional-level assistance; second, 
establishing a collaborative learning environment that engages 
host country governments, communities, and other implementing 
partners, bilateral and multilateral partners included, as well 
as other U.S.-funded organizations; testing the functionality 
of new partnership and ownership models as State and USAID move 
to lead both the whole-of-government approach to food security, 
undertake a broadly consultative process in country and with 
regional organizations, and expand outreach to international 
donors and multilateral organizations. Thank you.
    [The prepared statement of Ms. Howard 
follows:]<greek-l>Julie Howard deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Payne. Thank you very much. Reverend Beckmann?

STATEMENT OF REVEREND DAVID BECKMANN, PRESIDENT, BREAD FOR THE 
                             WORLD

    Rev. Beckmann. Chairman Payne, Ranking Member Smith, 
members of the committee, I really appreciate your holding this 
hearing. I appreciated your opening remarks and am grateful for 
the invitation to speak.
    Bread for the World is a collective Christian voice that 
urges our nation's decision-makers to end hunger in our country 
and around the world. We are part of the Road Map to End Hunger 
Coalition, and I am co-chair of the Modernizing Foreign 
Assistance Network.
    We strongly support the administration's Global Hunger and 
Food Security Initiative. I am struck that, in our conversation 
this morning, there is a lot of agreement between what the two 
of you said and what the witnesses have said, and there is a 
considerable consensus about what needs to be done to reduce 
hunger and food insecurity in the world, and the 
administration's consultation draft incorporates a lot of the 
things that we have talked about here.
    I appreciate that they have actually started to provide 
leadership. It is not just about U.S. Government money but 
about getting the governments of the world, foundations, civil 
society, corporations, to focus together on reducing hunger and 
food insecurity mainly by investing in agriculture in poor 
countries.
    I think the consultation draft is good in many respects. It 
is grounded in country consultations, so it would be responsive 
to what local people need, and it would get the actors working 
together. I think it is right to focus on agriculture, helping 
people be productive, but it also is comprehensive and includes 
nutrition and other elements that are important to reducing 
hunger, and what it says about using the multilaterals also 
makes a lot of sense.
    I have three suggestions. One is that the consultation 
draft says it, but I think it is important that child 
undernutrition be the primary indicator of whether this thing 
works. So the focus is on agriculture, cut you can have 
different kinds of agricultural development, and if we focus on 
whether fewer kids are undernourished, that will tend to pull 
the whole thing in the direction of the kind of agriculture 
that will reduce hunger and also complementary programs of 
rural development and nutrition that will reduce hunger.
    Undernutrition among children is particularly deadly, and 
it is also relatively easy to monitor, so that can be used. 
When we are talking about this 3 years from now, we should 
judge our success by whether there are fewer undernourished 
kids.
    Second, I think the initiative should include the 
development of organizations that speak for hungry people, so 
as we move toward these country consultations, it is especially 
important that somebody engage and strengthen organizations--
farmers' organizations, women's organizations, religious 
organizations--that include and speak for hungry people so that 
they are ready to pull this whole thing down toward 
responsiveness to the people we want to reach, and then also, 
internationally, the best network we have of those kinds of 
organizations is called the International Alliance Against 
Hunger, but it is laughably weak, and that kind of 
international network of organizations that speak for hungry 
people also needs to be strengthened as part of this global 
initiative.
    Finally, as Dr. Howard said, the administration of this 
initiative should be designed in a way that contributes to the 
broader reform of foreign assistance and, specifically, the 
emergence of a strong, 21st century, U.S. development agency.
    Chairman Berman and members of this committee have played a 
leadership role in getting a process of reform in our foreign 
assistance started. All of us know that our foreign aid 
programs could be more effective. What has happened is a 
scattering of foreign aid programs across the government, a 
complexity of objectives, lots of earmarks. As a result, as Dr. 
Howard said, we are not very responsive to local situations and 
local ideas. So everybody knows we ought to make it better, 
especially if we are going to put more money into it.
    Now, the Senate, the White House, the State Department are 
all working on foreign aid reform, as is the Foreign Affairs 
Committee. So we cannot wait to work on the global hunger 
problem until that process is done, but the Global Hunger 
Initiative should be administered in a way that contributes to 
more effective U.S. foreign assistance generally.
    I hope that the Foreign Affairs Committee will proceed with 
its work to make our foreign aid program more effective, and I 
would plead that making foreign aid more effective, this ought 
to be something on which Republicans and Democrats can work 
together. It will be a better outcome, it will be a more 
durable outcome, if the two parties can work together on this, 
making our aid programs more effective.
    Then, as the administration proceeds to implement this 
Global Hunger Initiative, it seems to me that the vision of 
where we want to go with foreign assistance reform suggests a 
strong role for USAID. So the Secretary needs to appoint an 
administrator of USAID, and, in USAID, I think that is where 
the coordination function should be, to work with the rest of 
government on this initiative.
    The Secretary should continue to speak out and put wind 
behind the sails of this initiative, but if she does that, and 
if we build up a capacity for this initiative within USAID, 
then we are moving toward a 21st century, capable, transparent, 
transformed agency that can work on agriculture, nutrition, and 
a range of issues that are important to hungry people around 
the world and to our own country.
    So I think what the administration has started is really 
good. I think we ought to keep our eyes on what is happening to 
undernourished kids. That is how we should judge our success. 
We should strengthen organizations around the world that speak 
up for hungry people, and the administration of this initiative 
should be set up in a way that contributes to a strong U.S. 
development agency.
    [The prepared statement of Mr. Beckmann 
follows:]<greek-l>David Beckmann deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Payne. Thank you. Mr. Leach?

STATEMENT OF MR. RICHARD LEACH, SENIOR ADVISOR, PUBLIC POLICY, 
               FRIENDS OF THE WORLD FOOD PROGRAM

    Mr. Leach. Mr. Chairman, I thank you very much for your 
continuing commitment to addressing hunger and Ranking Member 
Smith by traveling the world, looking at some of the problems, 
holding these hearings. It has been critically important.
    I was thinking, coming up here today, that we meet today 
with great concern and great optimism, concern for all of the 
reasons that you have mentioned: The increasing number of 
people suffering from hunger around the world.
    For the first time in many decades, we are actually not 
moving forward in terms of decreasing the percent of the 
overall population that is being removed from the ranks of the 
hungry. But, you know, in so many of the hearings, so many of 
the discussions, so many of the speeches in years past about 
the issue of hunger, there has been discussion about what we 
know. We know how to address this problem, and it has been said 
that the only issue is political will, and I do think that now 
we actually have the political will to address this problem and 
address it comprehensively, and, for that, I think we have a 
lot of optimism.
    From the President's statements and his inaugural address 
to Secretary Clinton's convening of this interagency group that 
is truly moving the issue forward, I think it is a new day for 
all of us in the effort to address global hunger.
    I want to just focus my comments on the comprehensive 
approach. There has been a number of organizations--Dr. 
Beckmann mentioned the Roadmap Coalition that we are a member 
of and really salute the incredible NGO community that has come 
together in this effort over the last 12 months.
    The comprehensive approach highlighted in the 
administration's recent document seems to be consistent with 
the elements of the Roadmap work, also consistent with the 
Global Food Security Act, and the Roadmap legislation, and all 
of these focus on four key pillars that are critical, we think, 
to addressing this problem comprehensively, and that includes 
emergency response, safety nets, nutrition, and agriculture 
development. All address a different element of the problem, 
and all, we believe, are critical if we are going to address 
this comprehensively.
    As you know, the emergency response efforts save lives. 
They are to help people who are facing a crisis, whether it be 
from national disaster or civil conflict. Based on current 
trends, we, unfortunately, expect the number of people who will 
need emergency assistance to remain at about 100 million people 
per year.
    The United States Government has consistently, over the 
decades, played the leadership role in addressing those 
afflicted by these emergency situations, and we are confident 
and hopeful that will continue.
    We fully support all of the recommendations that have 
focused on increasing flexibility and enhancing the 
effectiveness of our emergency response, which includes both 
commodity and cash resources. We have some ideas about ways to 
make maybe some creative approaches there as well, in terms of 
our food aid program, that perhaps we can entertain.
    The second is the safety net programs, as was mentioned. 
These help mitigate the impacts of societal shocks on those on 
the margin. In many respects, it is to help those on the edge 
not fall over the edge, and it is critical that we help 
countries create their own safety net systems, not merely 
provide temporary assistance when the crisis occurs but help 
countries create their own systems similar to our own food 
stamp programs.
    Third are the nutrition programs that were also mentioned, 
which are critically important, especially for vulnerable 
populations like pregnant, lactating women; children between 
zero and five but especially zero to two, where if they do not 
have the proper nutrition, they will not develop, either 
cognitively or physically, in the degree that they should.
    Similarly, there are other populations, like those who are 
afflicted by AIDS, who need proper nutrition to be able to, in 
essence, take the antiretrovirals.
    The fourth category, as has been mentioned, is the 
agriculture development. Such a large percent of the population 
of the world, those who suffer from poverty, are involved in 
agriculture. This will help ensure that we can raise the level 
of the economics of that population.
    In summary, a comprehensive strategy that combines 
emergency assistance to help those who require immediate 
assistance, safety net programs to ensure those on the edge do 
not fall over the edge, nutrition programs to ensure that 
specific vulnerable populations have the opportunity to grow 
and develop properly, and the agricultural development efforts 
to develop long-term means to break the cycle of poverty are 
all critical to address the full spectrum of food insecurity, 
both acute, chronic, urban, and rural.
    Hunger takes many forms. By integrating each of these 
categories, we will ensure that the initiative reaches all of 
those in need. We are concerned that without taking action on 
all four pillars that we will not comprehensively address this 
problem.
    I also want to just add my comments in support for what has 
been said about the critical importance of integrating gender 
into this strategy and also Dave Beckmann's comments about the 
importance of having nutritional indicators and other very 
clear, transparent indicators where we can assess progress and 
make revisions, if necessary.
    One comment about the United States Congress, and that is, 
as you all know, the jurisdiction for the issue of hunger falls 
within the jurisdiction of a lot of different committees, both 
authorizing and appropriations committees. So any of your 
efforts to determine how best to coordinate among all of these 
committees could help ensure the effectiveness and success of 
this initiative.
    As we move from the planning to implementation phase, there 
are going to be a lot of critical issues for us all to grapple 
with, and with what we have seen from this administration in 
terms of their commitment, I feel very confident that we will, 
in fact, successfully address these issues.
    In closing, I just wanted to mention something that 
everyone in this room knows, and that is, as we talk about the 
data and the statistics and the numbers, that they represent 
real people, and, walking in here today, I was reminded of a 
situation in a particular African country where I saw this 
little boy leaning against a tree. He had been placed there by 
someone because he was too weak to stand, he was too weak even 
to fight the flies from his face, and it reminded me that that 
is the face of hunger. That is what we are here to try and 
grapple with.
    The other side of the coin is I remember going to a school-
feeding program in Malawi where the bright smiles on the faces 
of these children, when we got there, they sang to us, and they 
asked us to thank the American people for our support, through 
the McGovern-Dole program, for that school-feeding program, and 
those children are really the hope for tomorrow, and I feel 
quite confident, with the focus of this committee, with the 
members here, with this administration, that the face of 
tomorrow's children will be the children singing in the school-
feeding programs, not the malnourished boy leaning against a 
tree. Thank you so much.
    [The prepared statement of Mr. Leach 
follows:]<greek-l>Richard Leach deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Payne. Let me thank this panel for a very compassionate 
and very thorough testimony. I might see whether our member, 
Dr. Boozman, whether he would like to make an opening 
statement. Okay. We will wait until we have questioning.
    You might notice a number of members not present. There is 
an unveiling, a ``rollout,'' I guess they are calling it, of 
the health bill right now, so I would be interested myself to 
see what it is, but let me thank those members who are here.
    I just might mention, too, that I do know of the importance 
that Secretary Clinton has put on the whole question of this 
food security and who, early on in her administration, held a 
meeting at her office with Secretary Vilsack from the 
Agriculture Department, which I think was probably one of the 
first meetings of that nature early in the administration.
    So there is certainly a real interest in tying USDA with 
the Secretary of State, and I had the privilege also of being 
invited to her recent August trip to seven countries that she 
took in Africa, and Secretary Vilsack also came to Kenya, where 
he, with Secretary Clinton, visited a Kenyan agriculture 
research institute and met with Kenyan women farmers and met 
with Kenyan scientists, and so I do know that there is a 
tremendous amount of interest, and so we are hoping to see this 
implementation of the new policy.
    Let me ask you, Dr. Melito, since you have been following 
this issue for so long, and I appreciate the work that you have 
done and your reports; however, as we are all, you know, 
concerned about the fact that currently USAID does not have an 
administrator, and the position is still vacant, I wonder if, 
in your opinion, the USAID has the capacity to carry out the 
administration's food security program, or do you think that 
that task will be shared throughout different agencies, and the 
fact that the post is still open that there, in your opinion, 
will be a restructuring of USAID. If you would like to comment.
    Mr. Melito. I will begin by the answer, but I am sure my 
colleagues will have other things to say.
    The USAID has been an active part of the effort to create a 
strategy, and that is vital. USAID's expertise in development 
and in the area of ag. needs to be part of the discussion.
    We, in our meetings with USAID, have been pleased to hear 
the importance they are placing on creating the strategy. We 
are a little concerned that they have yet to really understand 
how they are going to report out on this. Their current 
thinking on reporting, we think, is more narrowly based on what 
they have been doing and not how it works with the rest of the 
government.
    We think, as the administration creates a strategy, how 
USAID's efforts, USDA's efforts, and MCC's efforts work 
together, I think, is going to be a vital part of the success 
of the strategy. USAID is the key development agency of the 
U.S. Government, and they need to be a key player in this 
effort.
    Dr. Gayle. I would just add, I think, clearly, it is 
important for us to have a strong development agency, and it is 
important for us to continue to build the strength of USAID. 
There have been efforts already to rebuild the staff within 
USAID. They are hiring more people and improving their ability 
to undertake their mission. The President, as well as the 
Secretary of State, have both said that they want a strong 
USAID and one that development, along with diplomacy and 
defense, are seen as equal pillars for our overall national 
security effort.
    So I think there is a real intention to build the strength 
of USAID, and, as Reverend Beckmann said, this initiative, done 
well, can actually be part of strengthening USAID, and so, with 
all of the agreement that we have around how important this 
issue of food security is, this can be a really important way 
for us to strengthen USAID.
    We have also said that this needs to be a whole-of-
government strategy, so it is not that USAID needs to be the 
only organization involved. Clearly, the USDA has to take a 
part, with the focus on nutrition and child health and maternal 
health. HHS and agencies within Health need to be a part of 
this.
    So this is really an initiative that will need to take a 
whole-of-government approach, but USAID, as the lead 
development agency, can be key to this, and this can also be 
key to helping to reinforce and continue to strengthen and 
build USAID.
    Ms. Howard. I agree, and I just want to add to that, yes, 
all of the agencies--USAID and other agencies--have a very 
important role to play in this Food Security Initiative, but I 
cannot overestimate enough the importance of having a 
coordinator, both in Washington and at the country and regional 
levels.
    We work quite closely with the African diplomatic community 
here, and I often think about one of my colleagues there, who 
said to me, ``You know, Julie, it is so difficult here for us 
to figure out the U.S. foreign assistance mechanism. There are 
multiple agencies,'' and he says, ``On the ground, why am I the 
one who has to be the mediator between USAID and MCC? In my 
country, they often do not know what the other is doing.''
    So I fear that that is the situation that we are faced with 
now. If there is not a very strong signal as, you know, this is 
the agency that is in charge. I am not belittling, not 
demeaning any of the other contributions, but someone has to be 
the focal point.
    I think Dr. Gayle is correct that USAID's capacity is 
increasing, it needs to continue to increase, but I think we 
cannot really delay much longer in establishing a firm focal 
point.
    Rev. Beckmann. I think this problem needs to be fixed with 
legislation, so the administration has inherited a fragmented 
foreign-assistance structure. At Bread for the World, we helped 
create the MCC, we lobbied for PEPFAR, so, you know, we 
understand that a lot of people were involved in this, but we 
come to a point where, over the last 10 years, we have doubled 
development assistance. President Obama wants to double foreign 
assistance again, so we are spending more money, and the way we 
have done that during the Bush administration was to create an 
MCA, to create a PEPFAR.
    I got a chance to visit Mozambique recently. USAID, MCA, 
and PEPFAR all have offices in Mozambique. My sense, from 
talking to staff in those agencies, is they do not have a very 
clear idea what each other is doing. They all have their own 
administrative procedures, so the ministers of this very poor, 
good government have to jump through three sets of hoops, see 
three sets of officials, and then there is a scattering, 60 
offices altogether, of the U.S. Government foreign aid 
programs.
    So when I was up in Northern Mozambique, it turned out that 
the USDA had a forestry project up in Northern Mozambique.
    So the administration is saying, ``We have got urgent 
problems. We cannot wait to fix this broader structural problem 
before we get started on this Food Security Initiative.'' So we 
need a clear guidance, I think, a strong, implementing role for 
USAID is part of that, some kind of coordination structure is 
part of it, but then it comes back to this subcommittee and the 
full committee.
    It is Congress that, together with the President, need to 
develop a clear, clean set of objectives and structures for our 
foreign aid program. It is not just in this area but in other 
areas. We are not using the taxpayer dollars as well as we 
should. I think we ought to put more dollars into it, but we 
really need this committee to work with the Senate and the 
President and the Secretary of State to fix foreign aid for 
this and for a bunch of other reasons.
    Mr. Payne. Yes?
    Mr. Leach. Just briefly, two comments. One is, in a 
positive sense, the administration, in developing the documents 
they presented, have, in fact, brought together all of the key 
agencies. So the consultative document that we have all been 
looking at was drafted by someone from USDA, USAID, and MCC. So 
they are working that process.
    The other point is, with regard to in country, I agree, 
this could be an opportunity to help enhance collaboration, and 
we feel strongly that the U.S. Ambassador in these particular 
countries needs to say, ``This is a priority,'' because, 
otherwise, the stove piping will not decrease. You have heard 
the comments from Jim McGovern, where he says he is out and 
sees, you know, the folks from USAID who want to travel with 
him to go look at the McGovern-Dole program because they have 
never seen it because the USDA administered the program.
    So with the U.S. Ambassador making this a priority, as the 
Secretary and the President have, we can start to deal with 
some of these issues immediately at the country level.
    Mr. Payne. Just real quickly before my time expires 
totally, there is a consultative process, I understand, that is 
going on right now in the administration. I wonder if any of 
your private organizations are involved in it, and how have 
they been coming along, just quickly, or what is going on?
    Rev. Beckmann. All of us have been involved in it. They 
have done a great job of reaching out. I think they have also 
come over to talk to Members of Congress. They are very clear 
about their desire to work with Congress on this, but they have 
consulted with all of our organizations. Also, they have 
brought in foundations and corporations, and they went to 
Africa and talked with African leaders.
    They had this big meeting that Secretary Clinton co-chaired 
with Secretary General Ban Ki-moon in which 99 governments 
talked about what ways that they are going to contribute in 
broad alignment to strengthen agriculture and reduce hunger in 
poor countries. So that process of consultation; it has been 
good in terms of developing a good plan. I think the 
consultation draft is very good, partly because they have 
listened, but it has also mobilized other governments, 
including African governments, governments in developing 
countries, other G-8 governments, and it has mobilized civil 
society foundations, companies. A number of U.S. agribusiness 
companies are much more interested in doing business in poor 
countries than they were several years ago.
    So I think the administration has done a good job of 
bringing them into the discussion and talking about how we can 
all--nobody is going to take orders from anybody, but how can 
all of those efforts work in broad alignment to reduce hunger 
and food insecurity?
    Dr. Gayle. If I could add, I would agree that there has 
been a very good consultative process up to this point. It is 
going to be important that it continues to be a consultative 
process all along because while we have a great, broad outline, 
it is in the implementation and the details of the 
implementation that it is going to continue to be critical to 
have all players at the table to make sure that we do what is 
in the best interest of a long-term solution to this.
    Just also, as Reverend Beckmann mentioned the private 
sector, I think it is important that we keep the private 
sector, who has a huge role in agricultural productivity in the 
countries which we are talking about, also engaged in this 
process.
    Mr. Payne. Great, and we really appreciate all that you are 
contributing--private organizations--and we are looking forward 
to Ms. Mills' meeting with members of our committee, where she 
will be summing up what has happened up to now, and we look 
forward to meeting with her in the near future. Mr. Smith?
    Mr. Smith. Thank you very much, Mr. Chairman.
    Let me thank our very distinguished witnesses for your 
testimony but, more importantly, for the work that you do on 
behalf of those who are suffering the cruelest poverty of all, 
and that is going hungry. You are doing outstanding work, and I 
think your insights today helped this committee, and this is a 
bipartisan issue. I have worked along with Tony Hall since I 
have been in Congress, for 29 years, on hunger issues, and 
there has never been any separation between the chairman and I 
on these issues.
    When I chaired this committee, and we did not have time 
limits then either on questions, we always worked, I think, 
hand in glove, and I think the chairman should be commended for 
his work relative to PEPFAR that he insisted that there be 
focus on nutrition. You cannot take your meds, you cannot take 
your retrovirals, you cannot get well, relatively speaking, if 
you are HIV positive, if you are undernourished or starving.
    So this is a very important hearing. It keeps that focus 
and keeps the subcommittee pushing hard on the hunger issue.
    Let me ask a number of questions. I will lay it out, and 
those who would like to answer, please do so.
    Let me, first of all, ask, with regards to the actual 
amounts of money; Dr. Melito, you spoke about the pledged 
amounts. All of us always talk about pledges versus the money 
that you actually end up with in hand, whether or not there is 
just a reprogramming or a reattribution of funding.
    What is really ``new funding''? And you even pointed out 
that it is a doubling of last year's budget request, what was 
actually appropriated versus what actually gets in, whether or 
not you really believe we are seeing a real breakthrough in new 
money, not just from the United States but from the other donor 
nations.
    You also pointed out, Dr. Melito, that 10 countries had net 
the goal of 10 percent. My question would be, is that an 
accurate barometer, the 10 percent? I know it is hard to come 
up with barometers as to what is really needed or not, but 10 
percent of one budget is not 10 percent of another, and I would 
note that the Comprehensive African Agriculture Development 
program said only eight, so have some countries slid in the 
meantime? That was in June when they put out those numbers.
    On the infrastructure issue, President Kikwete was here 
from Tanzania just a few weeks ago, and I had a very fine 
meeting with him. He is an outstanding leader. In every meeting 
he had here in Washington, and he thanked President Bush for 
his work in this country. He also thanked President Obama, but 
he talked about the importance of having that local control, 
and we have learned that with the states that when it comes to 
incubators and innovation and using money very wisely and 
prudently, local control is so important. All of you, or some 
of you, might want to speak to the very important issue of 
local control of those funds so that we are not directing it 
from Washington or from U.N. Headquarters or anywhere else.
    Also, on the issue of infrastructure, I was in DR Congo a 
couple of years ago, and farmers told me that they could grow 
all that they could possibly want but cannot get it to market: 
Roads and bridges. The Millennium Challenge Account saw a 
decrease last year, much of that attributable to the Senate, 
but that money is so important. What good is it to grow it if 
you cannot get it to the market? Highways here, and the 
infrastructure of those highways have made it all important as 
to why we have our robust economy here. It is one of the 
linchpins.
    On microfinance, some of you might want to touch on the 
issue of microfinance. I have worked on that my entire 
congressional career, as well as wrote two laws on it. I 
believe passionately in microfinance, but we need to do more 
for the rural farmer and for infrastructure systems. While 
microfinance will not build roads and bridges, it can help 
create a transportation, a FedEx, or something of that nature, 
that can get the food to market on a small scale and then build 
it up to a larger scale.
    Let me ask you, Reverend Beckmann and others who might want 
to answer, faith based; does the strategy adequately include 
faith-based groups? I know it is tough to say it because you 
are a part of it, and you also derive funding from the Federal 
Government, but we need honest assessments. Are the faith-based 
organizations being adequately funded, in your view, when it 
comes to nutritional and food support, and can we do more?
    It seems to me, and I have said this, and the chairman, I 
think, and I have agreed on this as well, from PEPFAR to all of 
the programs, the churches and the faith system in Africa 
provide such added value to getting food to the hungry mouths, 
so if you could touch on that.
    And, finally, on the issue of security, a different kind of 
security, military security, we have an Africa Command, as you 
know, that has set up in Africa. We have had hearings on it 
here, and we have tried to stay abreast of what they are doing, 
and it seems to me that if you have war or the threat of war or 
conflict or bandits, it is pretty hard to get food to hungry 
people: The role that you think that security, in the 
traditional sense, plays in ensuring that hungry people are no 
longer hungry.
    Mr. Melito. I think I will start. That is an 
extraordinarily great list of questions. I think it covers a 
lot of the areas that we all care about. I am going to touch on 
two of them, and then I will move on.
    First, on the budget issue, you raised an issue about a 
possible double-counting, how you measure this. On the work 
that my team is doing right now for Chairwoman DeLauro, we are 
trying to get a handle on the U.S. Government's total budget on 
food security, and it is much more difficult than you might 
think.
    We are working very closely with each of the agencies to 
try to create clear definitions of what is an ``expenditure on 
food security'' to try to get an understanding of what their 
particular missions are. I think that is going to be an 
important step in trying to create a baseline to then try to 
understand how things have changed over time, and that report 
is due early next year.
    As far as the CAADP goal, I want to say both a positive and 
a negative thing. On the positive side, we put eight countries 
in 2007, and it is twice as many as the four countries in 2005. 
However, this was a goal for 38 countries, and it is supposed 
to be completed by 2008. So we have not gotten the 2008 data 
yet, but it seems unlikely that we are going to reach the full 
38 countries by 2008.
    What is the right number? I do not know. They did commit to 
10 percent, and, in a situation where one-third or more of your 
population is undernourished, having it be 10 percent of your 
expenditures does not seem to be out of hand, and success of 
the initiative, as we move forward, is going to require active 
participation by the host governments. They need to make sure, 
whatever we do is in line with what they think is a priority, 
and they need to be active participants, and one way for that 
active participation is with their own budgets. Thank you.
    Dr. Gayle. Maybe just a couple of comments. I would agree 
with your comments on the issue of budget.
    On the infrastructure, yes, local control is critically 
important, and that is why I think each of us, in different 
ways, addressed this issue of flexibility and why it is so 
important that there be country-driven plans and that countries 
have the flexibility to decide what their priorities are and to 
match the different strategies with their own needs and to make 
sure that the funds are used in a way that they think make the 
biggest difference for the circumstances that they face.
    Yet that said, that does not mean that all monies should be 
directly transferred to governments because we also want to 
make sure that the governments have the capability to be able 
to administer and implement programs well. That is why 
organizations like ours work with local communities, as well as 
working with the governments, to strengthen their ability to be 
able to manage programs as effectively as possible.
    So it is that partnership, but making sure that the 
decision-making really can be a country-led decision-making, so 
I think that is critical.
    You mentioned the issue of MCC and other sort of 
infrastructure, like road infrastructure, and, again, I think, 
in different ways, we have all touched on the importance of 
making sure that there is coordination on the ground so that 
roads are being built in the places that would best support 
farmers' ability to get their crops to market.
    So I think this issue of better coordination so that MCC 
can do what it does well, USAID can do what it does well, USDA 
can do what it does well, et cetera, and that we do it in a 
coordinated way so that it can really have the comprehensive 
pieces that you talked about, but, clearly, this issue of 
infrastructure is critical.
    Microfinance; our work in providing village savings-led 
associations has been critical to the issue of food security, 
the ability for people to save, to make loans within 
communities, so that they can buy the best seed, so that they 
can develop the kinds of agricultural businesses that allow 
particularly women, small, holder farmer women, who oftentimes 
do not have resources otherwise, microfinance can be a lifeline 
to be able to contribute to a comprehensive approach to food 
security.
    So, yes, we believe that microfinance linked to some of 
these activities can be a really important way of being an 
engine for building food security and improving agricultural 
productivity, and, again, particularly for women.
    Finally, you mentioned the issue of overall security. We 
know that food insecurity has led to things like riots in 
countries, instability, and that if we do not take care of the 
issue of food insecurity, it goes hand in hand with instability 
and insecurity within countries as well.
    That said, in issues of high conflict, the issues of 
security are very intertwined, but it is important that we 
recognize what the role of security forces is and what the 
roles of long-term development and humanitarian assistance are 
and that we do not blur those lines in ways that ultimately are 
damaging to the efforts of either.
    Ms. Howard. Just to take a couple of these questions, on 
the 10-percent issue, I think it has been a very important 
marker for many African governments. I think it has helped to 
focus attention in Africa on the roots of the food security 
issue.
    I think if you look at the trends over the past several 
years, the 10 percent is a barrier. Many countries are close to 
that, so I think we definitely are seeing progress, some 
setbacks perhaps in the last year because of the food-price 
issue, but I think there are a couple of larger questions.
    One is, you know, because so many countries are so 
dependent on foreign assistance for a large part of their 
budgets, their own flexibility in saying, are they going to 
spend more on agriculture, also depends on the importance that 
donors attach to that, so that is one thing.
    The other thing that is a little troubling for us is that 
the 10 percent, just like Mr. Melito said, we do not have a 
clearly understood definition in our own U.S. Government of 
what ``food security investments'' comprise. It is the same in 
Africa. We know it is not just the Ministry of Agriculture 
budget, but what part of transportation, what part of other 
health ministries go into this?
    So there is no clear agreed definition, and also, if you 
look across the countries that have achieved the marker, I 
think some of us do not feel comfortable that the investments 
that are being made are necessarily the right ones that are 
going to push those countries in the right direction.
    So I think we, in the next phase, we really need to think 
more clearly about a kind of peer-review mechanism, helping 
NEPAT develop so we will have full confidence that not only is 
the funding target being met but that the right things are 
being invested, and I think that is very important, maybe 
thinking about expanding the doing-business-indicator approach.
    Just to comment on local control, I absolutely agree with 
that. Having transparency, having local groups that are able to 
participate in monitoring an evaluation of impact is really 
critical to this because, definitely, it is the government, but 
it is also the private sector, and it is also NGOs that need to 
be involved in that process.
    On infrastructure, I also could not agree with you more. In 
our report, it shows we would not have had an increase in 
agricultural investment over the last 4 years had it not been 
for key MCC investments. USAID funding in 2005 to 2008 was just 
flat. MCC was what drove it.
    I think the next stage in this is looking at, how do we 
make critical regional investments in infrastructure? Because 
MCC, the way it is set up now, is not able to do that, yet we 
know regional integration is critical, developing these 
regional markets. How can we aid the investment of those?
    Rev. Beckmann. I will focus just on the question that you 
specifically addressed to me. I really appreciated your remarks 
about hunger as a bipartisan issue. I know that that is shared 
by all three of you, and I am deeply grateful for the 
bipartisanship of Congress on this issue and what Tony Hall has 
done with people like Mr. Smith, Mr. Boozman, Frank Wolf. It 
keeps that tradition very much alive, that when it comes to 
hungry kids, we can park some other debates at the door.
    I just want to clarify that Bread for the World does not 
have any money from the U.S. Government. We are an advocacy 
organization, and we are financed by our members and the 
churches, and because we are an advocacy organization, we 
cannot get money from the U.S. Government to lobby the U.S. 
Government.
    So our focus is on what is good for hungry people. We do 
not have any other motive.
    I think, certainly, the whole food aid program, from the 
very beginning, has given a very strong role to faith-based and 
other community organizations, Catholic Relief Services, World 
Vision, American Jewish World Service. I may be wrong, but I 
think, in fact, the origins of CARE, it was partly people 
wanted to establish a secular agency that could be part of that 
administration of food assistance.
    So from the very beginning, food aid has been a model of 
engaging faith-based and other nongovernmental actors, and I 
think also, more broadly, in agriculture nutrition assistance, 
that U.S.-based, faith-based, and community organizations have 
a lot of capacity and should be, and probably will be, part of 
this initiative.
    As we move forward, I think the place to focus first is, 
how do we get programs that interact directly with poor 
communities? So your point about more decision-making has to be 
shifted to good governments in poor countries but also at the 
community level. Those poor communities ought to have more of a 
say. I mean, they are the actors.
    They are going to do 90 percent of the work in the end, so 
the money that is coming in from outside needs to work with 
them and support good things that those local communities are 
doing, and I think if we focus on how we are going to get some 
of this money into programs that will interact with those local 
poor communities, that is what is going to drive us, then, to 
use CARE and Catholic Relief Services, and then also, in 
country, to use the National Council of Churches, the 
Conference of Bishops. Every African country has a Conference 
of Bishops Office and a National Council of Churches. Most of 
them have Islamic Councils. Often, they work together.
    If we focus on how to get help in a way that the community 
will get it and have a voice in it, those entities will get 
involved, and I think we have a chance that the way the Food 
Security Initiative of the administration has started, this 
plan for country consultations, at least the language about how 
they want those to go, give us a chance to involve the 
religious community and other civil society actors in the 
developing countries in formulating what should the Food 
Security Initiative look like in Malawi, and if they are there 
as the thing is planned, they will also be there as it is 
implemented, and even more important--they are intermediaries--
what is most important is that poor communities, the people who 
are doing 90 percent of the work to get out of hunger, that 
they are reached and that they have a voice in how they are 
reached and what happens in their community. That is the way to 
make sure that this thing actually reduces hunger in the world.
    Mr. Leach. It is good to be here. I remember, 20 years ago, 
on the Select Committee on Hunger, we had the opportunity to 
work together, so I really appreciate your continued dedication 
to this issue.
    Three quick points: One, with regard to the funding, we 
have seen increases in the Fiscal Year 2010 budget and expect, 
in the Fiscal Year 2011 budget, in emergency response in terms 
of the annual appropriation. It will probably be about the same 
amount that was provided in prior years if you add in the 
emergency supplementals, but the annual appropriation is, in 
the Title II budget, $500 million higher than it was in prior 
years, and there are additional resources to add flexibility in 
the emergency response that was put in the foreign operations. 
About $300 million was suggested--I am not sure what the final 
number will be--to allow for some cash resources in emergency 
response.
    Similarly, in the agriculture-development area, there is a 
substantial amount of money, upwards of $1 billion, of new 
resources, but I am really looking forward to Dr. Melito's work 
because we have not been able to figure out where the safety 
net of the nutrition money is. I mean, we spent a lot of time, 
and we still do not know what <greek-l>is  deg.the number is, 
and a lot of groups have been doing a lot of work, and we are 
still scratching our heads.
    Just to add to Dr. Gale's comments about the national 
security issue, she shared how the World Food program says that 
when people are suffering from severe hunger, they do one of 
three things: Either they move, they revolt, or they die. The 
fact is that we have seen 30 to 40 countries experiencing 
riots.
    Dennis Blair, in testimony earlier in the year, said that 
the financial crisis was the number one national security 
threat to our country because of issues like this.
    Just to add to Dr. Beckmann's comments about the local 
planning, the local planning, which has been a key point to the 
administration's principles, needs to ensure that the folks on 
the ground--the NGOs, the multilaterals, the locals--are 
involved in the process of mapping out the problems, looking at 
what interventions, and coordinating, and that will ensure that 
we are achieving some of the goals that you have referenced.
    Mr. Payne. Thank you. To the co-chair, Dr. Boozman, who is 
co-chair of the Malaria and Neglected Tropical Disease Caucus 
and was so helpful getting then-First Lady Mrs. Bush and U.N. 
Ambassador for Malaria Ray Chambers as we kicked off the 
Malaria Caucus. I would like to ask you for your comments.
    Mr. Boozman. Thank you, Mr. Chairman, and we certainly 
appreciate your leadership in that regard.
    I think we all agree that what we are doing is not working, 
and we definitely need reform. You mentioned, Reverend 
Beckmann, about you go into these places, and you see the 
different offices and things. I think the reality is, to me, 
the reason that we have gotten in that position is where you 
have the PEPFAR and the Millennium Challenge Account, in 
different areas is because different administrations have felt 
those programs were important and have separated them off so 
that the money does not get lost in the black hole if you go 
the conventional way.
    So I do not know. I mean, I am interested in what do we do 
because that is the other side of it. When you start combining 
things, when you do not have good accountability, it does seem 
to be a black hole, and the things that you are trying to 
accomplish that you feel like are very important, and certainly 
those things were very important, the Millennium Challenge 
Account, PEPFAR, and things, in responding to a crisis. So how 
do you deal with that? I am just interested in what you guys 
think we need to do.
    The other thing--you could be thinking about this, too--is 
that it seems like, in visiting with others that have been 
around for a long time, and some of you all have been around 
for a long time, the idea that we have moved, over the 
decades--I know I was in Ghana, not being in Africa a lot, and 
was in Ghana not too long ago, and they were lamenting the fact 
that the seed varieties that they were using there were back at 
the turn of the century; very, very primitive, very whatever.
    Through the decades, it seems like we have moved from 
instead of building up the agricultural program versus just 
handing out food. Is that a correct statement?
    So let us talk about, again, how do we unfragment? I think 
we are fragmented for a reason. Like I say, you throw the money 
where it was thrown. It is a black hole; there is no 
accountability. How do we change?
    Mr. Melito. I guess I will start. You highlighted an 
important factor. In the last 10 or 15 years, the U.S. 
Government has moved most of its resources into emergency, and 
that was in line with a lot of the other donors.
    In the mid-eighties, a lot of frustration developed over 
the lack of success of the ag.-development efforts that had 
been ongoing, bilateral programs by the World Bank and such, 
and I think, as you move forward here, there is a lot of 
enthusiasm and energy to bring resources back to that sector, 
and I think that is vital, but I think it is also vital that we 
do not make the same mistake, which was we did not really 
devote the resources to monitoring and evaluation in the 
eighties. We really did not, you know, put the investment in to 
learn what was working and what was not working and then 
leverage what is working to improve it.
    So the consultation document does emphasize monitoring and 
evaluation. That is key. I think that Congress needs to make 
sure that it stays in and that the resources are devoted to 
monitoring and evaluation.
    Dr. Gayle. I think you are also asking more broadly about 
our whole kind of foreign assistance industry, if you will, and 
the reality that we fragmented it perhaps for a reason.
    I think, as several of us have said, this effort, in many 
ways, is an effort that can be a harbinger or kind of a cutting 
edge for how we can do development better and our foreign 
assistance overall in a better way, and I think one of the 
things that we have lacked in the past is an overall 
comprehensive plan. Where do we want to go with foreign 
assistance? If we do not have a blueprint, if you will, some 
sort of a comprehensive plan, just like this effort is talking 
about, it is hard to hold an agency accountable. It is hard to 
know what your impact measurements really are.
    So I think, first and foremost, we have to have some sense 
of where do we want to go with our foreign assistance? What do 
we want to accomplish in development? Have a plan that then all 
of the agencies can work off of, and there can be a much 
greater and much more coordinated effort. Without that, the 
natural tendency will be to say, ``Well, you know, if we are 
not sure whether or not we are going to get any results, we 
want to make sure this one particular effort works.''
    So I think if we have an overall blueprint, some clear 
goals laid out, and then measurable impacts to hold us 
accountable for achieving those results, I think we really can 
have a much more coordinated overall foreign assistance.
    So, again, I think this kind of effort shows that there can 
be a whole-of-government approach, that it clearly needs to be 
coordinate and have a lead, but it is having that overarching 
plan in mind and also having the willingness to look at this as 
long term. Too often, our efforts have been short term. They 
have been doing small projects that do not really have the kind 
of impact that we want.
    So we have to look at this in a much more comprehensive, 
long-term way, recognizing that we have to have a way of 
measuring our overall impact and that impact is the goal, not 
just doing projects.
    You talked about whether or not we have shifted in our 
efforts from just giving aid out and giving food out to 
actually building capacity, and I think we have, and I think we 
need to do that more, but, again, as several of us said earlier 
on, this is not a ``one size fits all.''
    We still do need emergency aid, and we still will need to 
provide food and food substances to people in emergency 
situations, so we have to remember that that is going to be 
important in some situations, all the while we are looking at 
how do you build productivity, food security, and have a much 
more long-term strategy. So we need both, but we definitely 
want to make sure we are building the kind of capacity so that, 
ultimately, communities and populations can feed themselves and 
be sufficient in food and agricultural productivity.
    Ms. Howard. I think we are at the beginning of this 
changeover. I think, really, for the past two decades, we have 
been focused more and more on emergency assistance. We are just 
beginning to get back, creep back, into agriculture.
    On the fragmentation-and-why issue, I think that is an 
excellent point, and I agree with the previous comments about 
tying that directly to monitoring and evaluation, but I think 
we have some really important lessons from MCC in this regard 
because I think MCC has really been kind of a model of both 
consultation and what it means to put a plan together that has 
very specific benchmarks, indicators, and what is expected at 
the end of the day.
    So I think really looking closely at that model as we go 
forward with the Food Security Initiative that there will be 
some added twists, or I hope there will be some added twists, 
and that will be, how do we track not just the MCC impact or 
USAID impact but the total impact of all U.S. Government 
agencies, and then also relate that to other entities--
multilaterals, bilaterals--that are contributing to that.
    I think that is what we really need. That is a tough 
evaluation question to track, but I think that is where we are 
all at right now. We need that kind of specificity.
    Mr. Boozman. Thank you.
    Rev. Beckmann. Thank you for the question. I also just want 
to say, I think you have played a role with Wal-Mart. Wal-Mart 
is in your district, I think, and Wal-Mart is doing a lot of 
funding now on domestic hunger and in other ways, in their own 
work force, they are addressing issues of poverty and hunger in 
a way they did not do maybe 10 years ago.
    So Mr. Smith mentioned hunger in America, and what you have 
done with Wal-Mart, based in your own district, I think is 
really important actually to reducing hunger in America, so I 
want to start by thanking you for that.
    On the broad question of how to get reform in foreign 
assistance, I think what we need is, in a way that has not 
happened for decades, for Congress and the President to agree, 
first, what are we trying to do with foreign aid? We have now 
got something like 30 goals, so there needs to be a grand 
bargain in which Congress and the President agree on what are 
the goals, and then what are the administrative arrangements to 
achieve those goals because that has not been reauthorized? We 
are still dealing with the Foreign Assistance Act of 1961.
    So because there has not been a reauthorization, the way we 
have set up, we keep adding things and earmark an agency, but 
if Congress and the President could agree on the basic goals, 
then there could also be an agreement on the administrative 
arrangements and an accountability system so that Congress 
knows it is not a black hole. You are giving authority to 
somebody, and you want to know what the results are in terms of 
the agreed goals.
    Then also, if we would do that, we could make our 
assistance program more responsive to local governments and 
local people because they are really in a much better position 
than anybody in Washington to know whether the thing is 
working. If our assistance is responsive, then they are going 
to be saying--they can see on the ground if the money is 
working. So, broadly, that is the big hope.
    Now, to get to that, I think doing something in the full 
committee--there is H.R. 2139--some kind of amended form of 
that maybe that would be acceptable to the minority. It is a 
pretty unobjectionable bill. It would strengthen 
accountability. That is the main new thing in it.
    On the Senate side, on the 19th, the Senate Foreign 
Relations Committee is marking up N.S. 1524, which is a 
counterpart bill.
    So I think it would really help this process of getting to 
the grand bargain if those two bills were conferenced and maybe 
passed so that Congress is saying to the President and the 
Secretary of State, ``You are laying down some markers in terms 
of strengthening USAID, better accountability,'' and then, 
beyond that, then there is the process of reauthorizing the 
Foreign Assistance Act, and I do not think that has got to be 
done.
    Now, in the meantime, the world cannot wait. There are a 
lot of hungry people, and the Secretary and the President are 
right that they have got to go ahead and deal with the problems 
we face now with the laws we have got now.
    Mr. Payne. Thank you, Reverend Beckmann and Mr. Leach, we 
have a vote, and I do want to ask our Congresswoman Watson if 
she would like to ask some questions. If you would yield, Dr. 
Boozman.
    Ms. Watson. Let me just make a statement, and then I will 
leave to go to the floor.
    Mr. Chairman, I want to thank you so much for this 
hearing--it is so timely--on global food security. Yesterday, 
one of our most noted senators was given the Congressional Gold 
Medal, Ed Brooke, and the first thing he said is that, 
together, we can change the world, and he pointed at all of the 
leadership sitting behind him, and he said, ``If we are going 
to change the world attitudes toward the United States, we must 
address the famine, the starvation, and the needs of people who 
call themselves our opposition.''
    So I cannot think of a more timely subject to be dealing 
with because we are facing a new worldwide food security 
crisis. He understood that. He was 90 years<greek-l>' deg. old. 
The changes in weather have caused droughts and hurricanes. I 
come from California. I can tell you about a drought.
    I can tell you about the fire that burned for 3 weeks 
several weeks ago. I can tell you that where I am, in Southern 
California, we are desert. The northern part of the State has 
6,000 miles of delta. They have got the water; we do not, and 
we suffer every day because of it, and hurricanes that resulted 
in an increase in the number of the world's hungry.
    The global economy crisis and soaring food prices have 
concurrently reduced the ability of people to purchase a 
minimum food supply. Because of these combined factors, hunger 
is on the rise. In the last decade, and I am speaking to the 
choir, I know, since the declaration of the Millennium 
Development Goals, the number of food-insecure, hungry people 
has increased.
    We have not progressed toward the goal of cutting in half 
the 2000 level of hungry people by 2015. Over 700 million 
people globally are undernourished. A child dies every 6 
seconds due to malnutrition-related causes. The U.S., along 
with other nations, has made efforts to restore the human right 
to nourishment, yet we are woefully falling short, and I 
believe that those of you who have made constructive 
suggestions, you understand this: How do we get there?
    We want the world to know that we know the conditions they 
are living in, and I am so reminded of what Senator Ed Brooke 
said yesterday, that regardless of our parties, regardless of 
our ideology, the only way we win is to consider the needs of 
other countries, and I am not talking about getting out there 
by ourselves but getting the European Union, NATO, our allies, 
to come together and recognize how we win over our detractors.
    So the U.S. will have to maintain a strong commitment to 
providing emergency support, and assistance must also be 
matched by equally strong investments in agriculture 
development and attrition to address the underlying causes of 
hunger, and the question becomes how we can best reform our 
system, USAID, to address these underlying causes of hunger.
    We must remember that food supplies a vital part of the 
development, health, and stability of a nation, but developing 
better farming practices in a region will not help a farmer get 
his produce to market without a road, and lessons in nutrition 
will remain unused if we do not help improve access to better 
choices.
    So, Mr. Chairman, I want to thank you for your overall 
commitment, and I always kid him, if he is missing for Monday, 
he has been in Africa, and I do not know if there is any one 
member who has put himself on the line and knows the problems 
throughout the world, mainly on the continent of Africa, and so 
thank you so much for holding this hearing. I am going to rush 
on down to the floor.
    I was at the Health Access news conference, very well 
attended, and we actually had people from various parts of our 
country who were testifying on their condition and how our bill 
will help improve their living standards, so thank you so much, 
and I yield back the remainder of my time.
    Mr. Payne. Thank you very much, and, as we do know, it is 
extremely important that we take care of our needs here as we 
try. We can do both, and we can do both better, and I do not 
think we have to ever think we have to compete domestic issues 
against international issues, and that has been settled years 
ago.
    Mr. Smith might have a short----
    Mr. Smith. Yes, very brief. Again, thanks for the hearing. 
It was a very good and important hearing.
    I do want to welcome back Greg Simpkins, who served very 
admirably and very effectively on this committee on our staff. 
He is now vice president of policy and program development for 
the Leon H. Sullivan Foundation.
    Greg, great to see you again.
    I would just point out again to our distinguished 
witnesses, the MCC, the Presidential request for 2009 was 
$2.225 billion. The appropriated amount was $875 million, a 
little more than a third of the request.
    In 2010, the House appropriated $1.4 billion; the Senate, 
$950 million in infrastructure. Infrastructure is the key. It 
is part of that continuum if we really want to mitigate hunger 
and, hopefully, end it. So a very disturbing trend there, but, 
again, this is an important hearing, and I look forward to 
working with our panelists going forward and with the chairman.
    Mr. Payne. Thank you very much, and I would also like to 
thank the members who participated. We have a number of 
unanswered questions. We could have gotten into GMOs, but not 
enough time to talk about a number of the issues still there.
    We are looking to make sure that the money--as you know, we 
appropriated $48 billion for PEPFAR. We worked very closely 
with President Bush and the appropriators. We have to see, 
though, that now that we have it authorized, we have to be sure 
that it becomes appropriated, and we are also pleased that 
since that appropriations, the new administration has increased 
the PEPFAR overall, $48 billion, by $4 billion, which is now 
$52 billion, for HIV/AIDS, malaria, and tuberculosis, and 
another $11 billion that makes the total number $63 billion 
that will include maternal and child health, neglected tropical 
diseases, which there will be a new emphasis on, and also 
developing health systems so that when, 5 years from now, we 
are expecting not only people to be served better but also to 
have health systems that individual countries can develop.
    We heard one of the witnesses mention diplomacy, 
USAID<greek-l>, deg. and <greek-l>AID and ?? deg.Defense, and 
we did not get into that whole business about the 
militarization for foreign assistance. They say the military 
can do it better. That is because they get all of the money, so 
they do it.
    If we could somehow get the aid agencies to be able to 
distribute, in my opinion, we would see better utilization. I 
am not opposed to the fact that there are military people all 
over the world, and the U.S. covers the entire world with some 
kind of military operation, but I think we are perhaps better 
on the right track now than what we heard initially, that we 
want the aid agencies.
    I also think that we just simply need to work on better 
coordination. I hear people say, ``Well, we should, you know, 
perhaps stop one of the programs, you know, Millennium 
Challenge, and forget PEPFAR or do PEPFAR and not do another.'' 
I think what we simply need to do is to have a strong agency, 
as has been mentioned, in the office of our Ambassador 
somewhere in a country where these agencies would simply be 
coordinated. It makes sense. Each of these programs, perhaps 
some are obsolete, but many do a very specific service.
    All we simply have to do is to coordinate it so that the 
left hand knows what the right hand is doing, and I am sure 
that we will be able to synchronize it so that we can, in the 
long run, be able to modernize and, therefore, have additional 
resources on the ground by virtue of saving of overhead and 
better coordination.
    So I think it is the smart thing to do, and I am sure that 
the Secretary of State and the Obama administration will come 
up with a good program, but, once again, let me thank all of 
the witnesses. It was fantastic. We could have gone on, but, as 
you know, the vote is on.
    So I ask unanimous consent for members to have 5 days to 
revise and extend their remarks. Without objection, so ordered, 
and let me once again thank each of the witnesses for your 
incredible work that you have done, and without your advocacy 
out there, the work that we do up here would be much more 
difficult. Thank you very much. The meeting stands adjourned.
    [Whereupon, at 11:31 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
